                                                                          NATIONAL SCIENCE FOUNDATlON
                                                                                 4201 WILSON BOULEVARD
                                                                                ARLINGTON, VIRGINIA 22230




                                                                   -
                                          OFFICE OF
                                      INSPECTOR GENERAL




                                                                                              .   ,

                                       MEMORANDUM
1   --   .. .I - ---   .   .. . . .      .~ -. .-.-       .
1
                                             -'       .
            ,                          DATE:                  April 29, 1996

~                                      TO:                    I95050021

                                       FROM:                                   -- special Agent




                                                                 -                                         I
                                       VIA:               II_,
                                                             Special Agent-in-Charg

                                       RE:                    False listing of honorary degree by
                                                                                                J-iD
                                                                                                   r


                                       O n May 18, 1995, our ofice received a newsDaDer    .      article which re~orted the
                                                                                                       A



                                       resignation of Dr.                  from the College of                      because he
                                       had'allegedly listed an honorary degree on his cirriculum vitae that he did not actually
                                       receive.

                                       The president of the College of                 explained tha-         falsification
                                       involved an honorary degree f r o m             of                   The president
                                       stated that-had        completed work for his PhD a        w       n but had failed
                                       to make a presentation of his thesis- the only act necessary to earn the honorary
                                       degree.

                                       However, in reviewing his NSF grants, we concluded that           NSF awards were
                                       made based on the merits of the projects proposed, the accomplishments of the co-PIS
                                       and         experience as an administrator, not as a researcher.

                                       Since there is no evidence that NSF awards were based on -representations
                                       about the honorary degree, further investigation is not warranted at this time. This
                                       case this closed.
